   June 14, 2002




Information Technology

Certification of the Reserve
Component Automation System
(D-2002-103)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
Additional Copies

To obtain additional copies of this audit report, visit the Web site of the Inspector
General of the Department of Defense at www.dodig.osd.mil/audit/reports or
contact the Secondary Reports Distribution Unit of the Audit Followup and
Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
(703) 604-8932.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Audit Followup and
Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
fax (703) 604-8932. Ideas and requests can also be mailed to:

                  OAIG-AUD (ATTN: AFTS Audit Suggestions)
                  Inspector General of the Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
The identity of each writer and caller is fully protected.




    Acronyms
    ASD(C3I)               Assistant Secretary of Defense (Command, Control,
                              Communications, and Intelligence)
    CIO                    Chief Information Officer
    CCA                    Clinger-Cohen Act
    IPT                    Integrated Product Team
    IT                     Information Technology
    PA&E                   Program Analysis and Evaluation
    PMO                    Program Management Office
    RCAS                   Reserve Component Automation System
         Office of the Inspector General of the Department of Defense
Report No. D-2002-103                                                     June 14, 2002
  (Project No. D2000AS-0212.001)

       Certification of the Reserve Component Automation System

                                   Executive Summary

Who Should Read This Report and Why? Managers who plan, develop, or oversee
DoD automated information systems will be interested in this report.

Background. This report is the second in a series evaluating certifications that DoD
automated information systems were being developed in accordance with the
Clinger-Cohen Act. During FYs 2000 and 2001, Congress required that the Chief
Information Officer, DoD, before approving acquisition Milestones I, II, or III of high-
cost information systems, evaluate the actions taken related to specific requirements of
the Clinger-Cohen Act. To help ensure effective oversight of DoD information
technology investments, Congress included Section 8121(b) in the DoD Appropriations
Act for FY 2000, which also required the Chief Information Officer, DoD, to inform
Congress of the certifications and to provide confirmation that DoD Components took
steps to meet specific requirements of the Act. The Reserve Component Automation
System has estimated life cycle costs of $2.4 billion for FYs 1996 through 2007.

Results. The Chief Information Officer, DoD, did not report to Congress that
development of the Reserve Component Automation System did not fully comply with
the intent of the Clinger-Cohen Act. The limitations directly affected three of the five
interest items that were specified in Section 8121(b)(2): business process
reengineering, analysis of alternatives, and performance measures. The Chief
Information Officer did not believe the weaknesses for business process reengineering
and analysis of alternatives were significant enough to withhold congressional
certification and no weaknesses were identified for functional performance measures
even though none were specifically developed. Disclosure of compliance limitations
would have provided Congress with a more accurate measure of the progress and
results that respective information technology investments made in complying with the
Clinger-Cohen Act. To meet the full intent of the Clinger-Cohen Act, the application
of business process reengineering and analysis of alternatives principles should be used
before initiating development of any future RCAS increment and functional
performance measures should be formally established. Additionally, the risks
associated with exchanging unencrypted data files should be reevaluated. Further, out-
year funding for the system should be identified and related congressional reporting
requirements met. See the finding for the detailed recommendations.

Management Comments and Audit Response. The Chief Information Officer, DoD,
generally concurred with the audit results and stated that he would develop criteria to
enable uniform assessments and reporting in conjunction with the Chief Information
Officers of the DoD Components. The Army partially concurred with the
recommendations on reviewing future system increments, establishing functional
performance measures, evaluating the risks associated with the exchange of
unencrypted data files, and identifying out-year funding for the Reserve Component
Automation System. Army comments on the recommendations to review future system
increments and functional performance measures were not clear; therefore, we ask for
additional comments. We also request the Army to respond to the recommendation
concerning congressional reporting. We request the Army to provide comments on the
final report by July 15, 2002. See the Finding section of the report for a discussion of
management comments. The complete text of management comments is in the
Management Comments section.




                                           ii
Table of Contents

Executive Summary                                                         i


Introduction
     Background                                                           1
     Objectives                                                           3

Finding
     Certification of the Reserve Component Automation System as
       Compliant with the Clinger-Cohen Act                               4

Appendixes
     A. Audit Process
         Scope and Methodology                                           18
         Prior Coverage                                                  19
     B. Clinger-Cohen Act of 1996 and Statutory Requirements             20
     C. Summary of Management Comments on the Finding and
          Audit Response                                                 22
     D. Report Distribution                                              27

Management Comments
     Assistant Secretary of Defense (Command, Control, Communications,
       and Intelligence)                                                 29
     Chief, National Guard Bureau                                        31
     Chief, Army Reserve                                                 45
     Army Director of Information Systems for Command, Control
       Communications, and Computers                                     48
Background
           In the mid-1990s, Congress passed several items of legislation intended to
           improve the management and performance of Federal agencies. The reform
           legislation responded to the inability of Federal agencies to effectively manage
           the development and production of information technology (IT) systems to meet
           the needs of functional users. One major reform initiative was the Information
           Technology Management Reform Act of 1996, which was subsequently retitled
           the Clinger-Cohen Act of 1996 (CCA). To help ensure appropriate management
           practices in developing systems, Congress included section 8121(b) in the DoD
           Appropriations Act, FY 2000. Section 8121(b) required the Chief Information
           Officer (CIO), DoD, to certify, prior to approval of key acquisition review
           points (milestones), that the system was being developed in accordance with the
           CCA. Additionally, the CIO, DoD, was required to notify Congress of system
           certifications and confirm the performance of specific “interest items” related to
           CCA tenets. Appendix B provides a summary of the CCA and the specific
           section 8121(b) requirements.

           DoD Guidance. The specific interest items iterated in section 8121(b) were
           specifically recognized and required by DoD policy and guidance before the
           enactment of CCA in 1996. DoD Directive 8000.1, “Defense Information
           Management Program,” October 27, 1992, established policy and
           responsibilities for business process streamlining and improvements; preparing
           and validating functional economic analyses, which include analyses of
           alternatives and investment risk; developing functional process performance
           measures and assessments; and ensuring appropriate information security. In
           addition, DoD Directive 8120.1, “Life-Cycle Management (LCM) of
           Automated Information Systems (AISs) ,” January 14, 1993, 1 emphasized the
           importance of those specific section 8121(b)(2) interest items that are critical in
           the “early-on” IT development stages, especially those related to improving
           business processes and examining alternatives and projecting related costs and
           benefits.

           Acquisition Program Milestones. A milestone is a decision point that
           separates the major phases of an acquisition program. DoD acquisition policy
           requires a milestone decision before an acquisition program may progress to the
           next acquisition phase. The Assistant Secretary of Defense (Command,
           Control, Communications, and Intelligence) (ASD(C3I)), as the Milestone
           Decision Authority for major automated information systems approves milestone
           decisions for high-cost or special interest IT acquisition programs.

           Prior to October 2000, the major milestone phases included Concept
           Exploration (Phase 0), Program Definition and Risk Reduction (Phase I),
           Engineering and Manufacturing Development (Phase II), and Production,
           Fielding/Deployment, and Operational Support (Phase III). In October 2000,
           DoD substantially revised its acquisition guidance and requirements to reduce

1
    DoD Directive 5000.1, “Defense Acquisition,” March 15, 1996, canceled DoD Directive 8120.1 and
    incorporated the policies and requirements on life-cycle management for automated information systems.


                                                      1
            the number of major milestone phases and their associated decision points.
            DoD also revised acquisition regulations to clearly and effectively implement
            various aspects of IT reform legislation, including the CCA. Because the
            Reserve Component Automation System (RCAS) was already in Milestone III
            before the October 2000 change, the CIO continued to use the existing system of
            milestone designations for the project.

            Reserve Component Automation System. In 1986, the RCAS was established
            to provide the Army National Guard and the Army Reserve with a single,
            extensive, modern automated information system designed to support
            commanders, staffs, and functional managers in the administration and
            mobilization of the Army Reserve Component. The mission and vision of the
            RCAS are to support daily operations, training, and administrative tasks for all
            Guard and Reserve echelons and to provide timely and more accurate
            information to plan and support mobilization. When it is fully deployed, the
            RCAS will link more than 10,500 Guard and Reserve units at more than
            4000 sites located in all 50 states, the District of Columbia, Guam, Puerto Rico,
            the Virgin Islands, Europe, and the Pacific Rim.

            In FY 1995, the Army restructured the RCAS project to constrain cost growth
            and leverage new information technology. The restructured RCAS project
            consisted of commercial off-the-shelf hardware and office automation software,
            government off-the-shelf software2, and newly developed software applications
            that were integrated into a personal computer-based architecture.

            RCAS Increments. The 1995 project restructure also revised the RCAS
            acquisition strategy to provide an incremental, evolutionary acquisition approach
            that included development and deployment of capabilities for seven increments.
            Early project increments provided the necessary infrastructure. Increment 1,
            approved in September 1996 (Milestone IIIa), provided commercial-off-the-shelf
            office automation software, classified-capable and unclassified workstations, and
            wide area network interconnectivity. Increment 2, approved in January 1998
            (Milestone IIIb), introduced data servers and logistics functional software.
            Later increments focused on software development to better support several
            functional areas. Increment 3, approved May 2000 (Milestone IIIc), provided
            force authorization, security, and training functions. Increment 4/53, approved
            in July 2001 (Milestone IIId), introduced mobilization planning and occupational
            health management and added additional force authorization and modernization,
            human resources, and training management functionality. Increment 6,
            scheduled for certification for compliance with the requirements of the
            Clinger-Cohen Act during FY 2002 (Milestone IIIe), will introduce
            mobilization planning and occupational health management functions. Future
            increments will implement user requirements in the order of priority established
            by the Requirements Control Board for the Reserve Components. RCAS was


2
    Software previously developed to military or Federal specification or description and stocked by a
    distributor, before receiving orders or contracts for its sale.
3
    Increments 4 and 5 were combined into a single increment.


                                                       2
            scheduled to be fully deployed and transitioned to a separate organization within
            the Reserve Component for life-cycle support by March 2003.

            The estimated life-cycle costs of the RCAS project for Increments 1 through
            7 for FYs 1996 through 2007 totaled $2.4 billion. Beyond FY 2002, all costs
            will be user costs with the exception of activities required during the program
            transition period from the RCAS Project Management Office (PMO) and the
            contractor to the users and the RCAS software maintainer. The projected return
            on investment4 for RCAS Increment 3, as approved in May 2000, was 4.5 to 1
            and the projected return on investment for the entire RCAS project was 5 to 1.

            The ASD(C3I), as the CIO, DoD, certified on March 28, 2000, and on July 3,
            20015, respectively, that Increment 3 and Increments 4/5 of the Reserve
            Component Automation System had been developed in accordance with the
            requirements of the Clinger-Cohen Act.

Objectives
            The audit objective was to determine whether DoD oversight processes and
            procedures provided the CIO, DoD, with a sufficient basis to certify that the
            RCAS was being managed and developed in accordance with the CCA. This
            report is the second of a series. In a subsequent report, we will assess DoD
            progress in implementing the CCA and review related management controls. A
            description of the audit scope and methodology and prior coverage related to the
            RCAS project is shown in Appendix A.




4
    Return on investment is the ratio of the present value of benefits to the present value of costs.
5
    Section 8121(b) required CIO, DoD, certification during FY 2000. The certification requirement was
    extended through FY 2001 by Section 8102(b) of the DoD Appropriations Act, FY 2001.


                                                         3
                    Certification of the Reserve Component
                    Automation System As Compliant with
                    the Clinger-Cohen Act
                    Limitations of the RCAS project efforts for Increments 3 and 4/56 for
                    compliance with the intent of the CCA were not reported by the CIO,
                    DoD. The limitations directly affected three of the five interest items
                    that were specified in Section 8121(b)(2). This condition occurred
                    because the CIO did not believe that the weaknesses associated with
                    business process reengineering and the analysis of alternatives were
                    significant enough to withhold the CCA certification. In addition, the
                    CIO did not identify any weakness in performance measures even though
                    the RCAS PMO and the Reserve Components had not established
                    functional performance measures. Accordingly, Congress was not
                    informed that the RCAS was not being developed in full compliance with
                    CCA requirements.

RCAS Certification Process
           The RCAS project was the first major automated information system in DoD
           that was subject to the Section 8121(b) certification process. The RCAS was
           also used to develop a template and a certification procedural process for follow-
           on projects. The PMO prepared a compliance report for the RCAS project,
           which summarized the requirements of Section 8121(b), provided background
           information on the RCAS project, and outlined the actions taken by project
           officials on the five interest items in Section 8121(b)(2): business process
           reengineering, analysis of alternatives, economic analysis, performance
           measures, and information assurance strategy. A review team,7 represented by
           various staff offices within the OSD, then prepared the congressional
           certification report for signature, stating that RCAS Increment 3 was being
           developed in accordance with the CCA. The compliance report and the CIO
           certification report contained essentially the same information.

           On February 25, 2000, the review team briefed the CIO on the RCAS draft
           certification report for Congress. The briefing included confirmation of steps
           taken by the PMO to address each of the five specific congressional interest
           items.

           During its briefing to the CIO, the review team presented a qualified statement
           for actions regarding business processing reengineering and the analysis of

6
    Increments 4 and 5 were combined into a single increment.
7
    The review team consisted of action officers from the Office of the Secretary of Defense (Command,
    Control, Communications, and Intelligence); Director, Program Analysis and Evaluation; Director,
    Operational Test and Evaluation; and Joint Staff, Director for Command, Control, Communications and
    Computers (J-6).


                                                     4
alternatives because business process work flows had not been substantially
redesigned. Additionally, the PMO had not considered a full range of
approaches for the analysis of alternatives to reduce costs, outsourcing services,
streamline operations, or privatize functions.

Despite those weaknesses, the review team recommended that the CIO certify
RCAS Increment 3 as CCA compliant. According to the review team, the
certification report could not qualify or restrict the level of steps taken by the
PMO for business process reengineering and analysis of alternatives; a
“qualified” or restricted certification was not an option because a project either
did or did not meet the CCA certification requirements. The CIO tentatively
approved the certification during the briefing, thus authorizing the preparation
of the official certification report and congressional notification letters for
submission to Congress.

The CIO coordinated the certification report and notification letters with, and
obtained endorsement by the Office of the Under Secretary of Defense
(Comptroller); the Office of the Assistant Secretary of Defense for Legislative
Affairs; the Office of the Deputy Under Secretary of Defense for Program
Integration; the Department of the Army, Office of the Director of Information
Systems for Command, Control, Communications, and Computers; the Office of
the Director, Program Analysis and Evaluation (PA&E); the Office of General
Counsel; the National Guard Bureau, Program Executive Office for Information
Systems; and the Chairman of the RCAS General Officer Steering Committee.
The CIO submitted the certification report to Congress on March 28, 2000.

We focused on the certification of Increment 3. However, because the CIO
certified and submitted the certification report on RCAS Increments 4/5 to
Congress on July 3, 2001, while the audit was still in progress, we performed a
limited review of the certification report on Increments 4/5. We determined
that, similar to the certification report for Increment 3, the CIO did not report
any limitations of the RCAS project efforts for compliance with the intent of
CCA. Unlike Increment 3, the OSD review team did not provide a formal
documented briefing on its conclusions regarding certification of Increments 4/5
(Milestone IIId) to the CIO. According to the staff in the Office of the
Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) (ASD[C3I]) staff, Milestone IIId represented a recertification of the
project’s compliance with the CCA requirements and that, with the exception of
determining that operations and support for RCAS were insufficiently funded,
and updating the tables and exhibits in the certification report, no major changes
or issues occurred after the OSD review team’s assessment of Increment 3.
Because the CIO certified Increment 4/5 based on similar efforts performed by
the RCAS PMO and assessments made by the OSD review team on Increment 3,
we concluded that the concerns presented in the report were also applicable to
Increment 4/5.

Because the RCAS was the first system certified as being developed in
accordance with the CCA, we believe that the CIO should have established that
two classes of information systems are subject to the requirements of the CCA
within DoD. Specifically, systems that started development or were in an early
phase of development after the enactment of the CCA in 1996 should fully

                                     5
    comply with the CCA. However, systems such as RCAS, which were in an
    advanced stage of development and deployment when the CCA was enacted,
    most likely would not fully meet the tenets of the CCA because the opportunities
    to realize the most substantial benefits from “up front” efforts such as business
    process reengineering or analysis of alternatives were reduced by that time.

Business Process Reengineering
    Confirmation of Business Process Reengineering Certification. Although
    representatives from the offices of the ASD(C3I) and the Director, PA&E,
    acknowledged that DoD and the Army had not focused on the use of
    activity-based costing techniques to simplify or otherwise redesign business
    processes before investing in RCAS, the certification report to Congress did not
    clearly explain that RCAS business process reengineering efforts did not
    completely meet the full intent of the CCA.

    RCAS Business Process Reengineering Efforts. Although the RCAS
    investment should improve and support work processes to reduce cost, improve
    effectiveness, and implement Government and commercial off-the-shelf
    technology, the work processes of the Reserve Components were not fully
    subjected to business process reengineering.

    The General Accounting Office, “Business Process Reengineering Assessment
    Guide,” May 1997, states that a business process can be decomposed into
    specific activities, measured, modeled, and improved; redesigned; or
    eliminated. Reengineering identifies, analyzes, and redesigns an organization’s
    core business processes to achieve dramatic improvements in critical
    performance measures. In addition, the guide states that dramatic improvements
    realized by rethinking how the organization’s work should be achieved,
    distinguishes reengineering from process improvement that focuses on functional
    or incremental improvement.

    Efforts undertaken by the RCAS PMO to justify information technology
    investments in the system did not identify, dramatically redesign, and eliminate
    low or no value-added functions or work processes before deciding to invest in
    RCAS. The RCAS PMO indicated that such efforts were not a top priority in
    1989 because the functional users were focused on developing requirements and
    identifying and documenting pre-automation business processes. According to
    the PMO, those efforts were not emphasized when OSD reprogrammed the
    Continental Army Management Information System in 1986 as RCAS or
    restructured the RCAS project in 1995. The efforts of the RCAS stakeholders
    and officials related to business process reengineering could, at best, be
    considered an improvement in the functional process; however, those efforts
    could not be considered a redesign and reengineering of established business
    processes or workflows.

    We asked the PMO to provide documentation to show that management
    considered and took advantage of business process reengineering opportunities
    before making a commitment and commencing the development or acquisition of
    software applications that would satisfy the functional requirements for each

                                        6
     new RCAS increment. The PMO stated that business process reengineering was
     a functional community responsibility and did not know whether the Reserve
     Component functional communities had performed independent business process
     reengineering analyses for each increment. In essence, the PMO, in conjunction
     with the functional proponents, had not performed business process
     reengineering on any of the RCAS increments since the 1996 enactment of the
     CCA.

     Staffs of the ASD(C3I) and PMO also indicated that business process
     reengineering was not a primary consideration when the Army reprogrammed
     the Continental Army Management Information System and renamed it as RCAS
     in 1986 because the significance of the derived advantages of business process
     reengineering were not widely recognized and emphasized at that time;
     however, when the Army restructured the RCAS project in FY 1995, DoD
     policy required DoD Components to consider business process streamlining.

     The PMO exerted extensive efforts to overcome the inadequacies of existing
     methods and procedures by proposing to automate inefficient, functionally
     disconnected, and manual processes. The PMO estimated that about
     $3.5 billion (94 percent) of the benefits derived from the RCAS included
     productivity improvements that would result from automating work processes
     rather than from the functional reengineering or redesign of those processes.
     Although automation of work processes would require fewer Reserve
     Component personnel to perform administrative tasks, there was no expectation
     to reduce the number of personnel. Instead, the Reserve Components planned to
     use the extra time to provide additional training for personnel.

Analysis of Alternatives and Economic Analysis
     Policy. DoD Instruction 7041.3, “Economic Analysis for Decision Making,”
     November 1995, contains policy for economic analysis and analysis of
     alternatives. An analysis of alternatives and an economic analysis are directly
     related; effective use of an analysis of alternatives, in conjunction with an
     economic analysis, provides a viable basis for evaluating potential solutions and
     selecting the most cost-effective alternative. The analysis of alternatives
     generally starts with a broad base of possible solutions to meet a mission need.
     When the field of possible solutions is narrowed to a few realistic alternatives,
     the principles of economic analysis and its tools of cost-benefit analysis and
     return-on-investment are applied to identify the most promising solution.

     Analysis of Alternatives. The PA&E office qualified its assessment of the
     analysis of alternatives in the February 2000 briefing to the CIO because the
     August 1996 analysis of alternatives did not consider a full range of alternatives
     to reduce cost, such as outsourcing specific functions or streamlining or
     privatizing routine administrative processes. Routine administrative processes
     include personnel activities, payroll, training, and human resources.




                                          7
    According to DoD Instruction 7041.3, each feasible alternative for meeting an
    objective must be considered and its life-cycle costs and benefits should be
    evaluated. Alternatives dismissed as “infeasible” must be discussed, but need
    not be formally compared in the economic analysis.

    The PMO stated that the RCAS was exempt from outsourcing routine
    administrative processes because the system was established under title 10,
    United States Code of the Armed Services Program and because it supported
    numerous inherent Government functions, such as manning, equipping, training,
    and sustaining the Army’s Reserve Components.

    We acknowledge that the mobilization capability of the RCAS may be an
    inherent Government function but believe that the routine administrative
    processes of RCAS are not. The Office of Management and Budget
    Circular A-76, “Performance of Commercial Activities,” August 4, 1983,
    (Revised 1999) states that an inherent Government function is a function that is
    so intimately related to the public interest as to mandate performance by
    Government employees. The PMO did not provide any documentation to show
    how RCAS was an inherent Government function. Additionally, the PMO did
    not consider, in the analysis of alternatives, the opportunity to competitively
    source the day-to-day, repetitive administrative tasks and work processes of the
    project and did not discuss the infeasibility of that option.

    Economic Analysis. We examined the related Milestone III economic analysis,
    dated August 1996, and identified no major deficiencies based on the
    requirements of DoD Instruction 7041.3. Also, neither the PMO nor the
    ASD(C3I) presented any economic analysis issues to the CIO during the RCAS
    certification briefing. However, we noted that the benefits used in the
    computation of the return on investment consisted of “soft dollars” or benefits
    that could not be quantitatively tracked through the budget process. The PA&E
    office questioned the amount of actual benefits because benefits were primarily
    based on productivity gains. Because the return on investment was based on
    increased productivity, the use of performance measures to assess the functional
    benefits of the RCAS investment becomes even more important.

Performance Measures
    Functional proponents of RCAS did not establish a performance measurement
    plan to assess functional performance or to identify whether the desired results
    were being achieved after the deployment of RCAS. Specifically, new
    processes were not compared against measures of outcome, output, and
    efficiency of RCAS in order to continually monitor performance and make
    further refinements. In addition, the PMO did not use benchmarks to assess the
    efficiency of work process improvements.

    Functional Performance Measures. According to the PMO, proponents did
    not establish functional performance measures because those measures were not
    considered a top priority in 1989 when the functional users focused on
    identifying and documenting pre-automation business processes and translating
    the results into requirements for RCAS. In addition, user representatives,

                                        8
    including members of the customer focus team for RCAS, stated that they did
    not establish functional performance measures. The CCA requires that
    performance measurements be prescribed for information technology acquired
    for or used by the executive agency. The performance measurements should
    indicate how well the information technology supports projects of the executive
    agency.

    Although functional proponents established key performance measures for the
    system’s operational performance, including operational effectiveness and
    suitability, cost, timeliness, and quality, the measurements, when implemented,
    did not measure the outcome of the investment in or functional benefits of
    RCAS. Without functional performance measures, the Army and the Reserve
    Components would not be able to determine, quantitatively, how well
    RCAS-improved processes met mission goals, or identified problems in meeting
    those goals. An example of a functional performance measure may be to show
    how many soldiers would be relieved of administrative workloads in order to
    engage in more training because of RCAS automation.

    Benchmarks. Although the CIO certification report stated that benchmarks
    were used to derive risk-adjusted alternative technical solutions during the 1995
    project restructure, the PMO did not provide any documentation to support its
    benchmarking efforts. For benchmarking, the CCA requires that, where
    comparable processes and organizations in the public or private sectors exist,
    process performance should be quantitatively benchmarked against such
    processes in terms of cost, speed, productivity, and quality of outputs and
    outcomes.

    The General Accounting Office, “Business Process Reengineering Assessment
    Guide,” dated May 1997, indicated that benchmarks are instrumental in
    identifying gaps between an organization’s process performance and that of
    leading organizations and in understanding how those leaders have changed their
    structures, work processes, and lines of business to improve performance
    dramatically.

    According to the RCAS PMO, no documented evidence was available to show
    that either the functional users or the PMO used benchmarks for existing work
    processes with internal or commercial organizations. Unless an organization
    uses benchmarks to measure its process performance with the goals and
    performance of leading organizations, it is difficult to establish reference points
    for setting meaningful improvement goals. Benchmarks, when used in
    conjunction with performance measurement, present a sound method to establish
    a credible business case for changing work processes of an organization.

Information Assurance
    Although the certification testing of RCAS met the requirements of DoD
    Instruction 5200.40, “DoD Information Technology Security Certification and




                                         9
            Accreditation Process,” December 30, 1997, and the congressional certification
            requirements for the CCA, the PMO did not use encryption8 techniques to
            safeguard sensitive but unclassified data.

            In January 1997, at the request of the RCAS Program Executive Office, the
            Director of Information Systems for Command, Control, Communications, and
            Computers, who was the Designated Approving Authority for the RCAS,
            granted a deferment for deploying data encryption hardware devices, pending
            final determination of a software encryption or common hardware solution. As
            of January 2002, the deferment was still in effect.

            We requested and the PMO provided a listing of 28 current and projected
            system interfaces. Of the 28 interfaces with other systems, 16 data exchanges
            used File Transfer Protocol, which is a service that supports file transfers
            between local and remote computers, including the Internet. No documentation
            was available to indicate that RCAS encrypted any of its data. The PMO stated
            that electronic external interfaces were not authenticated 9 or encrypted and that
            engineering efforts were ongoing with the owners of the data to provide security
            during electronic transmission. Though the data were unclassified, they may
            have contained sensitive information, such as personnel data, manpower
            allocation, and force structure. If the data remain unencrypted, system users
            may be vulnerable to network attacks or compromise, such as eavesdropping
            and playback.

            The Director of Information Systems for Command, Control, Communications,
            and Computers and the PMO should review the risks associated with passing
            unsecured sensitive data and implement encryption technology, such as the
            Secure Socket Layer, if appropriate, to reduce the risk of inadvertent disclosure
            of sensitive but unclassified data.

Oversight
            Although the CIO, senior DoD officials, and action officers reviewed key
            project documents, such as the acquisition strategy, the Operations Concept
            document (the RCAS project’s operational requirements document), the Test
            and Evaluation Master Plan, and the Acquisition Program Baseline, the CIO
            needs to establish uniform criteria to determine compliance with the CCA. The
            criteria should include the need for the Overarching and Integrating Integrated
            Product Teams10 to improve their involvement in the certification process.

8
    Encryption is the transformation of data into a form unreadable by anyone without a secret decryption
    key and ensures privacy by keeping the information hidden from anyone for whom it was not intended.
9
    Authentication is the process of determining the identity of a user attempting to access a system.
10
    In 1995, the Under Secretary of Defense for Acquisition, Technology, and Logistics and the ASD(C 3I)
    issued guidance entitled “Rules of the Road, A Guide for Leading Successful Integrated Product Teams”
    that emphasized the importance and advantages of minutes of meetings, what they should include, and
    that all members of the IPT should be provided final minutes within 2 working days after the deadline
    for the receipt of comments.


                                                        10
Additionally, the CIO and senior DoD officials need to make sure that the Army
complies with congressional direction regarding the absence of funding for
sustainment operations and support for the RCAS project.

CIO, DoD. The CIO, DoD, certified that Increment 3 of the RCAS project was
developed in accordance with the CCA, although the basis for the certification
was confusing because the CIO had not established universal criteria or a
consistent approach to determine the adequacy of compliance with the CCA
requirements. The first report in this series, Inspector General, DoD, Report
No. D-2001-137, “Certification of the Defense Civilian Personnel Data
System,” June 7, 2001, recommended that the CIO clarify and enhance the
criteria and approach to be used by DoD Components for determining whether
major automated information systems are developed in accordance with the
CCA. Therefore, this report will not include a recommendation addressing the
matter.

Overall, the CIO could improve oversight responsibilities through periodic
verification of information provided. Because CIO staff members seldom
performed detailed reviews of project documentation, we concluded that prudent
verification could substantially improve the effectiveness of oversight
responsibilities. This report will not include a recommendation addressing this
matter because Inspector General, DoD, Report No. D-2000-137 recommended
that the CIO strengthen oversight processes, including the process for certifying
that major automated information systems are developed in accordance with the
CCA, by periodically confirming the accuracy and adequacy of information
reported by DoD Components.

Army CIO. Absent compliance criteria from the CIO, DoD, the Army CIO
established a checklist, which included Section 8121(b) requirements, to assess
compliance with the CCA. In December 1999, the Army CIO approved the
CCA compliance of Milestone IIIc, Increment 3, based on the PMO self-
assessment checklist submission that addressed the five interest items outlined in
the OSD(C3I) guidance.
Information Technology Overarching Integrated Product Team. The
Information Technology Overarching Integrated Product Team (Overarching
IPT) was minimally involved in the oversight of the RCAS. The primary role of
the Overarching IPT was to provide advice to the CIO during milestone reviews.
The Director, C3I Acquisition (now the Director, Investment and Acquisition),
Office of the Deputy Assistant Secretary of Defense (C3I) CIO, chaired the
Overarching IPT that was composed of senior managers representing the primary
staff assistants with an interest in the RCAS. The Overarching IPT included
senior managers from the offices of the Under Secretary of Defense for
Acquisition, Technology, and Logistics; the Under Secretary of Defense
(Comptroller); the Director, Operational Test and Evaluation; the Director,
Program Analysis and Evaluation; the Director, Defense Information Systems
Agency; the Director, Command, Control, Communications, and Computer
Systems, Joint Staff; and user representatives.




                                    11
Although the Overarching IPT reviewed and concurred with draft acquisition
decision memorandums before formal RCAS milestone decisions, it did not meet
during milestone reviews to discuss the progress and status of the RCAS project
and did not help identify potential programmatic problems . Instead, the
Overarching IPT relied on a lower-level, Integrating IPT to provide critical
RCAS oversight review and direction.

Integrating Integrated Product Team. The Integrating IPT members indicated
that they continuously monitored the RCAS project; however, they were unable
to provide summaries or minutes of meetings or any memorandums for the
record on the level of input and guidance by representatives on significant
programmatic issues discussed and resolved during reviews.

The Integrating IPT was co-chaired by the RCAS Project Manager and action
officers from the offices of the ASD(C3I); the Director, PA&E; the Director,
Operational Test and Evaluation; and the Joint Staff. From September 1996
through March 2000, the Integrating IPT met 13 times to monitor program
status, testing strategy, software encryption, information assurance, training,
incremental fielding and testing issues, and Section 8121(b) certification. The
Integrating IPT also tracked action items, audits, reviews, and corrective actions
to address deficiencies identified by the Inspector General, DoD, and the
General Accounting Office.

During the audit, the Integrating IPT showed improvements in maintaining
informative minutes of IPT meetings. For the April 2001 review of RCAS
Milestone IIId (Increment 4/5), the Integrating IPT produced a memorandum for
the record that disclosed the specific issues discussed, actions needed to address
those issues, and the next proposed Integrating IPT milestone review.

Program Funding. Although it had planned to fully deploy RCAS by the end
of FY 2002 (later changed to March 2003), the Army still had not provided
funding for operations and support requirements for the system. In the House
of Representatives Armed Services Committee (the Committee) Report
No. 106-616, “National Defense Authorization Act for FY 2001,” May 12,
2000, the Committee expressed a concern that, without continued support and
modernization, the Army Reserve could experience a serious deterioration in
readiness.

The Committee also expressed concern that the Army had allocated only limited
funding for the RCAS project in the Future Years Defense Program. In order to
ensure that the program continued to enable the effective administrative support
and mobilization capability required by the Reserve Components, the Committee
expected the Department of the Army to program sufficient funds for RCAS.
The Committee directed the Secretary of Defense to provide a report no later
than March 1, 2001, to the Senate and House Committees on Armed Services
detailing programmed funds for RCAS for FYs 2002 through 2007. As of
June 2002, the Army had not completed and submitted the report to the
Committees.

In the January 2001 Defense Acquisition Executive Summary report, the RCAS
PMO reported a $765 million unfunded requirement in FYs 2002 through 2007

                                    12
    for operations and support required to operate and maintain the RCAS
    infrastructure. During its Milestone IIId review of Increment 4/5 in April 2001,
    the Integrating IPT decided that the unfunded requirement should be
    acknowledged in the CIO certification compliance package and in the
    Milestone IIId Acquisition Decision Memorandum. Specifically, in the July 2,
    2001, Milestone IIId Acquisition Decision Memorandum, the Overarching IPT
    tasked the Army and the RCAS PMO to jointly work towards a strategy to
    resolve the unfunded requirement. The Army and the RCAS PMO were to
    report their findings and recommendations to the Overarching IPT and the
    RCAS General Officer Steering Committee before the end of FY 2001. In
    addition, the Acquisition Decision Memorandum stated that the RCAS “Other
    Procurement” funding for FY 2002 would not be obligated until the CIO, DoD,
    reviewed and approved the study and its recommendations.

Conclusion
    The CIO certified that RCAS was developed in accordance with the CCA,
    although business process reengineering, an analysis of alternatives, and
    performance measures were not fully compliant with the intent of CCA
    requirements. Milestone III was too late in the RCAS development process to
    effectively use and fully capitalize upon these investment tools. The
    certification report to Congress should have explained that, due to RCAS
    Milestone III decision point, the project was not fully subjected to steps that
    could justify more than a qualified confirmation. Disclosure of compliance
    limitations would have provided a more accurate measure of the progress and
    results that respective IT investments made in complying with the CCA.

    Also, although RCAS was past the stage where business processes reengineering
    and an analysis of alternatives could be most useful, performance measures to
    measure the functional benefits of RCAS after full deployment of the system
    should still be established and would still be beneficial. Further, the application
    of business process reengineering and analysis of alternatives principles would
    still be useful prior to initiating development of any future RCAS increment.

Management Comments on the Finding and Audit Response
    Management Comments. The Deputy Chief Information Officer, DoD,
    concurred and stated that although certain CCA compliance limitations were
    recognized by DoD officials at the time of certification, achieving full
    compliance was also recognized as not practical because RCAS development
    was too advanced to remedy weaknesses that occurred early in the development
    process.

    On behalf of the National Guard Bureau and the RCAS PMO, the National
    Guard Chief Information Officer and Program Executive Officer for Information
    Systems provided consolidated comments that nonconcurred with the finding.
    The National Guard Chief Information Officer stated that activities related to



                                        13
     each of the interest items were completed before the CCA was enacted and that
    the efforts followed the regulations, guidance, and best practices that were
    available at the time.

    Audit Response. We agree that achieving full compliance may not have been
    practical because RCAS was already at Milestone III and that efforts followed
    the guidance that existed at the time. The review team also recognized
    limitations to full compliance. Accordingly, the CIO, DoD, certification that
    RCAS was being developed in accordance with the CCA should have been
    appropriately qualified.

    The National Guard Chief Information Officer disagreed with other aspects of
    the finding and discussion. A summary of additional management comments
    and the audit response is in Appendix C. The full text of all management
    comments is in the Management Comments section of this report.

Recommendations, Management Comments and Audit
  Response
    Revised, Deleted, and Renumbered Recommendations. Based on
    management comments, we revised draft Recommendation 3.a. to better express
    our intent. Based on management comments and additional audit work, we
    deleted draft Recommendation 4.a. Additionally, for clarity, we converted draft
    Recommendations 3.a. and 3.b. into distinctly separate recommendations.
    Therefore, draft Recommendations 3.a. and 3.b. have been renumbered as
    Recommendations 3. and 4., respectively. We also renumbered draft
    Recommendations 4.b. and 5. to Recommendations 5. and 6., respectively.

    1. We recommend that the Chief Information Officer, DoD, establish policy
    to report limitations of project efforts for full compliance with the intent of
    the Clinger-Cohen Act requirements.

    Management Comments. The Deputy Chief Information Officer, DoD,
    concurred and cited continuing efforts to develop, in coordination with DoD
    Component Chief Information Officers, specific criteria to enable uniform
    assessments of Clinger-Cohen Act compliance. Recent efforts include the
    development, during 2001, of an updated Clinger-Cohen Act certification and
    confirmation template. Further, two web sites were developed to enhance the
    procedures and approach used by DoD Components for determining
    Clinger-Cohen Act compliance.

    Audit Response. Although Clinger-Cohen Act compliance reporting to
    Congress is no longer required, DoD acquisition guidance continues to require,
    prior to project initiation or milestone approval by the Milestone Decision
    Authority, confirmation by DoD Component CIOs that mission-critical or
    mission-essential information systems are being developed in accordance with




                                       14
the Clinger-Cohen Act. Accordingly, the development of specific criteria
should help to obtain more consistent and uniform assessments of Clinger-Cohen
Act compliance.

2. We recommend that the Chief, National Guard Bureau; the Chief, Army
Reserve; and the Reserve Component Automation System Management
Officer review the five Section 8121(b)(2) interest items for the proposed
capabilities of Increment 6, as appropriate, and any future increments, and
determine whether the selected solution complies with the intent of the
requirements of the Clinger-Cohen Act.

Management Comments. The National Guard and Army Reserve both
provided qualified concurrences. The National Guard stated that business
process reengineering and analysis of alternatives were accomplished during the
earlier phases of RCAS development and that the reviews performed for each
RCAS increment validate earlier milestone decisions by ensuring that
requirements are satisfied. The Army Reserve stated that it strives to apply the
principles of the Clinger-Cohen Act and to manage its network and associated
systems and applications on an enterprise-wide basis. Accordingly, actions
taken for RCAS will also be the actions taken on behalf of all Army Reserve
systems.

Audit Response. Management comments did not address the intent of the
recommendation. We recognize that business process reengineering and
analysis of alternative efforts were performed more than 7 years ago and prior
to the RCAS restructure in 1995. We also recognize that information
technology has changed substantially over those 7 years. For information
technology systems that are incrementally developed over a period of time,
business processes or technological alternatives for implementing those
processes should be periodically reexamined, as intended by the Clinger-Cohen
Act. Accordingly, we request that the Chief, National Guard Bureau and the
Chief, Army Reserve reconsider their responses to the recommendation and
provide additional comments.

3. We recommend that the Chief, National Guard Bureau and the Chief,
Army Reserve require functional proponents of the Reserve Component
Automation System to establish functional performance measures to better
assess both the initial and future impact of RCAS on supported
functionalities.

Management Comments. The National Guard concurred in principle. The
National Guard agreed on the importance of performance measures and stated
that functional performance measures relating to administration, interoperability,
logistics, and security already exist and are documented. The existing
performance measures quantitatively set standards for hundreds of Reserve
Component processes and compare attributes of the new RCAS business
processes to the pre-RCAS business process.

The Army Reserve concurred with the intent of the recommendation, but stated
that because RCAS supported only some of the business processes within each
of the functional areas, measurement of RCAS operations in isolation of other

                                    15
supporting systems would potentially be counterproductive or misleading.
Alternatively, the Army Reserve is pursuing a more holistic means to catalog
and measure supporting information systems by building an information
technology portfolio, which will identify all systems and applications that
contribute to functional mission accomplishment. As a contributor to several
functional areas, RCAS is captured in the Army Reserve’s information
technology portfolio.

Audit Response. Management comments were partially responsive. Although
the National Guard indicated that functional performance measures had been
developed and were in place, the system of measures cited focused on enabling
economic analyses and operational testing, rather than on measuring and
assessing key improvements in each of the 11 functional areas supported by
RCAS. Some of the existing measures could be used to assess RCAS functional
performance and to help track improvements from future RCAS enhancements.
However, it is not clear how the functional contributions provided by RCAS are
assessed and monitored as part of the Army Reserve information technology
portfolio. Accordingly, we revised the recommendation to clarify our intent and
request that the National Guard and the Army Reserve provide additional
comments on the revised recommendation.

4. We recommend that the Chief, National Guard Bureau and the Chief,
Army Reserve assess the risk of exchanging unencrypted files containing
sensitive data between the Reserve Component Automated System for
proposed and fielded increments and other networked systems and, if
appropriate, implement encryption technology.

Management Comments. The National Guard and Army Reserve conditionally
concurred. The National Guard stated that the risks associated with exchanging
unencrypted files had been previously assessed by the Army and was
categorized as low. Additionally, the Designated Approval Authority for RCAS
will reexamine the subject risks during the next accreditation review, which is
scheduled for November 2002. Accordingly, the National Guard felt that the
recommended action by the National Guard and the Army Reserve is not
required. The Army Reserve stated that RCAS interfaces with other Army
Reserve systems within a secure network boundary, which minimizes the
security risks. The Army Reserve also cited initiatives to consolidate the RCAS
infrastructure into consolidated data centers with tightly controlled access in and
out of those centers.

Although not required to respond, the Army Deputy Chief Information Officer
(The Army Deputy CIO) concurred. Citing his responsibilities as the
Designated Approving Authority for RCAS, he stated that the risks related to
the exchange of unencrypted files will be specifically examined during the
scheduled reaccreditation of RCAS in November 2002. Further, the Army
Deputy CIO will specifically review and determine whether RCAS file
exchanges should continue to be unencrypted or additional security measures are
merited.




                                    16
5. We recommend that the Reserve Component Automation System Project
Manager develop a plan, prior to the Milestone IIIe review, for the
approval of the Chief Information Officer, Department of the Army, that
funds the operation and support of the Reserve Component Automation
System for FYs 2002 through 2007.

Management Comments. The National Guard, responding for the RCAS
Project Manager, conditionally concurred. The RCAS Project Manager and the
Army CIO worked jointly to identify sufficient funding to sustain RCAS.
Additionally, the Army recently directed more than $300 million to address
RCAS life-cycle shortfalls in funding. As a result, the Army Deputy Chief of
Staff for Program Analysis and Evaluation declared RCAS as affordable.

Although not required to respond, the Army Deputy CIO concurred and stated
that sufficient funding to sustain RCAS for FYs 2002 through 2007 had been
identified. Accordingly, the Army CIO certified on February 25, 2002, to the
CIO, DoD, that RCAS out-year funding issues had been resolved. Because
RCAS funding issues were resolved, the CIO, DoD, approved Milestone IIIe
and authorized the fielding of RCAS Increment 6 on March 25, 2002.

6. We recommend that the Assistant Secretary of the Army, Acquisition,
Logistics and Technology, expedite a report, which was due by March 1,
2001, to the Senate and House Committees on Armed Services, that details
sufficient programmed funds for administrative support and mobilization
capability for RCAS for FYs 2002 through 2007.

Management Comments Required. The Assistant Secretary did not comment
on a draft of this report. We ask that the Assistant Secretary provide comments
on the final report.




                                   17
Appendix A. Audit Process

Scope and Methodology
    We evaluated the basis for the certification made to Congress in response to
    Section 8121(b), and the effectiveness of oversight provided by the Overarching
    IPT, the Acquisition Oversight IPT, and the milestone reviews. Specifically,
    we reviewed the certification process, including the compliance report prepared
    by the RCAS PMO, briefing charts used to brief the Deputy CIO on the RCAS
    certification process, and the certification report submitted to Congress by the
    CIO.

    We discussed various aspects of the RCAS certification process, procedures,
    and information provided to Congress with staffs of the Director, Army
    National Guard; the Director, Program Analysis and Evaluation; and the CIO.

    We inquired about the oversight provided by the OSD Information Technology
    Overarching IPT. We reviewed project documents dating from July 1987
    through July 2001. We determined whether project officials adequately
    prepared key documentation prior to the Milestone IIIc review on December 14,
    1999.

    We reviewed the Acquisition Decision Memorandums issued for the
    Milestone IIIa (September 1996), IIIb (January 1998), and IIIc (May 2000)
    reviews and determined whether the exit criteria provided in the Acquisition
    Decision Memorandums were well-defined and enforced by the Milestone
    Decision Authority and his staff. Finally, we reviewed the actions taken in
    response to prior audits and reviews of the RCAS project.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Information Management and Technology high-risk area.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. We received technical assistance from a
    computer engineer in the Technical Assessment Division, Audit Followup and
    Technical Support Directorate. The computer engineer reviewed RCAS
    documentation on information security and testing. Specifically, the computer
    engineer reviewed the system security authorization agreement, the certification
    report, the risk assessment, the security user’s manual, the security standing
    operating procedures guide, and the system security architecture.

    Audit Type, Dates, and Standards. We performed this audit from January
    2001 through April 2002, in accordance with generally accepted government
    auditing standards.


                                       18
    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available upon request.

Prior Coverage
    Inspector General of the Department of Defense (IG DoD)

    IG DoD Audit Report No. 97-019, “Evaluation of the Reserve Component
    Automation System,” November 1, 1996

    IG DoD Audit Report No. D-2000-137, “Certification of the Defense Civilian
    Personnel Data System,” June 7, 2001




                                      19
Appendix B. Clinger-Cohen Act of 1996 and
            Statutory Requirements
   Clinger-Cohen Act of 1996. The CCA requires Federal agencies to focus on
   the results achieved through IT investments while streamlining the IT
   procurement process. Specifically, the CCA introduced additional precision and
   structure into the way that agencies approach the selection, acquisition, and
   management of IT. A primary requirement of the CCA was to establish the
   position of the CIO for each Federal agency.

   Therefore, in June 1997, the Secretary of Defense designated the ASD(C3I) as
   the CIO for DoD and conferred the authority and responsibility for
   implementing certain aspects of the CCA. The CIO responsibilities include:

          •   designing and implementing a process for maximizing the value and
              assessing and managing the risks of DoD IT acquisitions;

          •   institutionalizing performance- and results-based IT management; and

          •   providing advice and other assistance to the Secretary of Defense and
              other senior DoD managers to ensure that IT acquisition and
              information resources are managed in accordance with the policies of
              the CCA.

   The CIO is also responsible for the management and oversight of all DoD IT
   systems. Specific responsibilities include overseeing the performance of IT
   projects and measuring project progress through system milestone reviews.

   Statutory Requirements. Congress enacted Section 8121(b) , “Certifications
   as to Compliance with the Clinger-Cohen Act” of the DoD Appropriations Act
   for FY 2000, which states:
              (1) During the fiscal year 2000, a major automated information system
              may not receive Milestone I approval, Milestone II approval, or
              Milestone III approval within the Department of Defense until the
              Chief Information Officer certifies, with respect to that milestone, that
              the system is being developed in accordance with the Clinger-Cohen
              Act of 1996 (40 U.S.C 1401 et seq.). The Chief Information Officer
              may require additional certifications, as appropriate, with respect to
              any such system.

              (2) The Chief Information Officer shall provide the congressional
              defense committees timely notification of certifications under
              paragraph (1). Each such notification shall include, at a minimum, the
              funding baseline and milestone schedule for each system covered by
              such a certification and confirmation that the following steps have
              been taken with respect to the system:




                                            20
             A)      Business process reengineering.

             B)      An analysis of alternatives.

             C)      An economic analysis that includes a calculation of the
                     return on investment.

             D)      Performance measures.

             E)      An information assurance strategy consistent with DoD
                     Command, Control, Communications, Computers,
                     Intelligence, surveillance, and Reconnaissance
                     Architecture Framework.

Section 8121(b) requirements were only applicable during FY 2000. However,
Congress extended essentially the same certification requirements through
FY 2001 by enacting Section 8102(b), “Certifications as to Compliance with the
Clinger-Cohen Act,” of the DoD Appropriations Act for FY 2001. The DoD
Appropriations Act for FY 2002, section 8104(b) again extended a certification
requirement prior to milestone approval, but limited the scope of that
requirement to major automated information systems for financial management
and required that the Under Secretary of Defense (Comptroller) certify that the
system is being developed in accordance with the DoD Financial Management
Modernization Plan.




                                     21
Appendix C. Summary of Management
            Comments on the Finding and
            Audit Response
   Responding jointly for the Chief, National Guard Bureau and the RCAS PMO,
   the National Guard Bureau Chief Information Officer and Program Executive
   Officer for Information Systems disagreed with several topical area discussions
   in the draft report. Management nonconcurred with our discussions of the
   RCAS certification process, business process reengineering, analysis of
   alternatives, economic analysis, performance measures, the integrating IPT,
   milestone exit criteria, and the conclusion. Management also commented on
   several inaccuracies in the draft report.

   Management Comments on the RCAS Certification Process. Regarding the
   qualifications for business process reengineering and analysis of alternatives
   presented by the OSD review team in its briefing of the draft CIO RCAS
   certification report, management indicated that the qualifications were not
   merited. Management stated that the RCAS PMO provided an extensive set of
   artifacts regarding the occurrence of and content of those activities.

   Audit Response. As discussed in the report, the OSD review team did not
   consider steps taken by the RCAS project sufficiently rigorous to meet the intent
   of the CCA for business process reengineering or analysis of alternatives.

   Management Comments on Business Process Reengineering. Management
   stated that the CCA requires agencies to revise mission-related processes and
   that the RCAS PMO provided a variety of documentation showing that business
   processes were refined prior to significant RCAS investment. Additionally, the
   CCA makes no mention of business process reengineering or specific techniques
   to use for process revision. Citing functional process improvement that began
   in 1989 and continued through the RCAS restructure in 1995, management cited
   extensive study and documentation to create and refine core business processes
   across 11 functional areas. By 1996, RCAS had completed business process
   reengineering efforts and set requirements for all increments. Accordingly, it
   would be unreasonable to expect the RCAS PMO or the functional users to
   conduct further business process reengineering on any of the increments,
   regardless of their occurring after the enactment of the CCA.

   Audit Response. We agree with management on the stated requirements of the
   CCA. However, Section 8121(b) required that the CIO, in the certification
   report to Congress, describe steps taken in regard to business process
   reengineering. The differences between business process reengineering and
   business process improvements are discussed in the report. The report
   recognized business process improvements undertaken during RCAS
   development, but also it concluded that those efforts do not meet the higher
   standards inherent in business process reengineering or the intent of the CCA.
   We do not necessarily agree with management that once requirements are


                                      22
established, it is unreasonable to conduct further business process reengineering.
Such an approach may preclude leveraging subsequent technological or
functional improvements.

Management Comments on Analysis of Alternatives. For the range of
alternatives considered during the August 1996 analysis, management stated that
the analysis leading to the RCAS restructure in 1995 demonstrated that multiple
technical solutions, project organizations, and day-to-day business processes
were evaluated before selecting the RCAS solution. Regarding the possible
outsourcing of selected RCAS functions, management stated that, in meeting the
Federal Activities Inventory Reform Act requirement for agencies to annually
identify those activities not inherently governmental, senior Army executives
have not identified any jobs or functions that RCAS supports. Further, the
National Guard outsources to the States those functions not uniquely military or
inherently governmental.

Audit Response. We acknowledge that the cited alternatives were analyzed
prior to the RCAS restructure in 1995. However, the RCAS PMO provided no
evidence that the analyses of alternatives, including those documented for the
Milestone IIIa review in August 1996, considered the privatization of routine
administrative processes. Accordingly, we concluded that RCAS managers did
not meet one of the tenets of the CCA: determining whether the function could
be performed more effectively and at less cost by the private sector. We also
acknowledge that the thrust of the Federal Activities Inventory Reform Act is to
reduce the federal workforce by outsourcing those positions and activities that
are not inherently governmental. However, that Act was not passed until
October 1998, well past the period discussed. Because privatization of routine
administrative processes was not addressed by RCAS or functional officials in
the analysis of alternatives, we continue to conclude that the RCAS certification
should have been appropriately qualified.

Management Comments on Economic Analysis. Regarding the quantification
and tracking of RCAS benefits, management stated that RCAS management has
quantified the productivity improvements derived by the project by evaluating
labor requirements, cycle time, frequency, and output quality for RCAS
processes. The RCAS PMO also performs post-implementation reviews to
quantitatively track the actual realization of cost savings and productivity
improvements.

Audit Response. We agree that RCAS quantitatively expressed cost and
benefits in the formal cost benefit analysis produced to support each increment.
We also agree that the productivity improvements for each increment are
assessed and quantitatively expressed during each post-implementation review.
However, that was not the intended focus of our discussion in the draft report.
Our intent was to describe that the anticipated benefits of RCAS were primarily
based on productivity improvements and not on actual cost reductions or “hard”
savings. We have amended the economic analysis discussion on page 8 of this
final report to better express our intent.




                                    23
Management Comments on Performance Measures. Management stated that
key functional requirements were established during the RCAS restructure in
1995. Grouped into six performance measurement categories, these
requirements were then incorporated into the Acquisition Program Baseline.
Key performance parameters and measures of effectiveness were then
designated, including many functional performance measures such as
mobilization order processing times and maintenance response times. To
determine how well RCAS meets the key performance parameters, the Army
Test and Evaluation Command employs both operational and mobilization
activities to measure functional performance. Additionally, the functional
performance of each RCAS increment is independently analyzed. As of March
2002, management stated that more than 100 functional processes had been
measured. This approach provides the RCAS Project Manager and the user
community with both functional and system performance measures.
As to the use of benchmarking, management stated that the RCAS functional
communities used benchmarking during the process selection workshops
conducted during the late 1980s. Additionally, benchmarking was used, among
other techniques, during the RCAS restructure to derive low, medium, and
high-risk alternative sustainment strategies. A ”Benchmark Interview Guide”
was used to evaluate 4 existing Government programs and at least 15
commercial vendors.

Audit Response. We agree that some of the measures established could be used
as effective functional performance measures. However, the system of
measures cited by management was established primarily to measure system
performance, to establish performance parameters for operational testing, and to
aid in determining the systems economic benefits. As expressed in the report,
the main purpose of functional performance measures is to enable the functional
community, or communities, to quantitatively assess the amount of functional
gain provided from its investment in a new system. After the system is
completed, ongoing measurement of functional performance should also enable
the functional community to continually assess whether investments in system
maintenance or upgrades are worthwhile from a functional perspective.
Additionally, continual measurement of functional performance provides a
performance baseline from which the functional gains attributable to future new
systems can be soundly determined.

As to benchmarking, management did not provide supporting documentation
regarding the use of benchmarking in the late 1980s. Further, management
statements regarding the use of benchmarking to evaluate alternative sustainment
strategies could be misleading because they used benchmarking to select an
approach to system maintenance, which is not relevant to functional
performance measures. However, because the functional communities
supported by RCAS did not establish a functional performance baseline prior to
RCAS development, benchmarking could be of benefit in the establishment of
functional performance measures. Benchmarks representing the functional
performance of leading organizations could be used as a functional performance
goal. A system of functional performance measures would enable RCAS users
to measure progress toward achieving that goal.


                                   24
Management Comments on Integrating Integrated Product Team. As to the
date of the Milestone IIIe review, management stated that the review occurred in
October 2001, but that, as of January 2002, the related Acquisition Decision
Memorandum had not been issued.

Audit Response. We agree with management and have accordingly revised the
report.

Management Comments on Milestone Exit Criteria. In regards to the
effectiveness of RCAS training, management stated that the exit criteria
established by the DoD CIO for Milestone IIIc (Increment 3) were met. More
important, management stated that substantial improvement had been made in
training RCAS users since the fielding of Increment 3. Those improvements are
illustrated in the operational testing reports of the Army Test and Evaluation
Command for Increments 4/5 and 6. Management stated that during the recent
evaluation of RCAS Increment 6, the Army Test and Evaluation Command rated
training as one of the project’s areas of strength.

Audit Response. As a result of management comments, we reviewed the
operational test report for Increment 4/5. Because the operational test report
was not yet available, we also reviewed the Army Test and Evaluation
Command briefing charts for Increment 6 and discussed the adequacy of RCAS
Increment 6 training with Army Test and Evaluation Command personnel. As a
result, we agree that RCAS user training had significantly improved since
Increment 3 and was no longer a reportable weakness. Accordingly, we
removed the subject discussion and associated recommendation from this final
report.

Management Comments on Conclusion. Regarding the application of CCA
principles to future RCAS increments that contain new functions, management
stated that no new functions have entered the RCAS production process since
the project’s Milestone III decision in 1996.

Audit Response. Our intent was that RCAS managers reexamine business
process reengineering and analysis of alternatives prior to initiating development
of any future increment. Although the RCAS Milestone III was approved in
1996, the dynamics of the IT marketplace continue to provide opportunities for
enabling business process reengineering efforts. Accordingly, investments in
future RCAS increments should be examined within the context of the
Clinger-Cohen Act. We revised the conclusion in this report to better express
our intent.

Management Comments on Inaccuracies in the Draft Report. Management
identified items requiring correction, such as: RCAS is a project instead of a
program; the head of the RCAS PMO is the project manager and not the project
management officer; and the Reserve Components should be referred to as the
Army Reserve Component.

Audit Response. We made those corrections.



                                    25
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director, Program Analysis and Evaluation
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Deputy Assistant Secretary of Defense (Deputy Chief Information Officer)
      Director, Investment and Acquisition

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Inspector General, Department of the Army
Auditor General, Department of the Army
Chief Information Officer
Chief, National Guard Bureau
   Program Executive Officer for Information Systems
      Project Manager, Reserve Component Automation System
Chief, Army Reserve

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency
Inspector General, Defense Threat Reduction Agency
Commandant, Defense Systems Management College



                                          26
Non-Defense Federal Organization
Office of Management and Budget
  National Security Division
  Office of Information and Regulatory Affairs

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         27
Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence)
Comments




                      29
30
National Guard Bureau Comments




                    31
32
33
34
     Final Report
      Reference




     Revised




35
Final Report
 Reference




Revised




               36
     Final Report
      Reference




     Revised


     Deleted




37
Final Report
 Reference




Deleted


Deleted




               38
     Final Report
      Reference




     Revised
     Page 13




39
Final Report
 Reference




Revised and
Renumbered
as
Recommen-
dation 3.




               40
         Final Report
          Reference




     Renumbered
     as
     Recommen-
     dation 4.




     Deleted




41
Final Report
 Reference




Renumbered
as
Recommen-
dation 5.




Revised

Revised

Revised

Revised

Revised
Page 3
Deleted

Revised
Page 18




               42
     Final Report
      Reference




     Revised
     Page 27




43
44
Army Reserve Comments




                   45
Final Report
 Reference




Revised and
Renumbered
as
Recommen-
dation 3.




               46
     Final Report
      Reference




     Renumbered
     as
     Recommen-
     dation 4.




47
               Army CIO Comments
Final Report
 Reference




Renumbered
as
Recommen-
dation 4.




Renumbered
as
Recommen-
dation 5.




                                   48
49
50
51
52
53
Audit Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing of the Department of Defense prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

Mary Ugone
Wanda Scott
James Hutchinson
Alvin Lowe
Jerry Hall
Christine Winston
Jacqueline Pugh
